CERTIFICATE OF COMPLIANCE
No.__________
ANDREW W. SHALABY,
Petitioner,
v.
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF ILLINOIS
Respondents.
As required by Supreme Court Rule 33.1(h), I certify
that the petition for a writ of certiorari contains 4,787
words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on November 20, 2019
s/Andrew W. Shalaby

